              Department of the Interior
             Office of Inspector General




  Proper Use of Cooperative Agreements
      Could Improve Interior’s Initiatives
          for Collaborative Partnerships

Report No. W-IN-MOA-0086-2004       January 2007
                  United States Department of the Interior
                                   Office of Inspector General
                                        Western Region
                                             Federal Building
                                      2800 Cottage Way, Suite E-2712
                                        Sacramento, California 95825
                                                                           January 31, 2007
                                                                                       7430

Memorandum

To:        Deputy Secretary
           Assistant Secretary for Policy, Management and Budget

From:      Michael P. Colombo
           Regional Audit Manager

Subject:   Final Audit Report – Proper Use of Cooperative Agreements Could Improve
           Interior’s Initiatives for Collaborative Partnerships
           (Report No. W-IN-MOA-0086-2004)

        This report presents the results of our audit of the Department of the Interior’s
(Interior’s) use of cooperative agreements. Over the past decade, Interior has
significantly expanded its use of these agreements and now awards nearly a third of the
cooperative agreements issued government-wide. Our objective was to determine
whether Interior’s use of cooperative agreements (1) fostered effective partnerships,
(2) acquired goods and services for allowable and reasonable costs, and (3) complied
with applicable laws and regulations.

        We reviewed 119 cooperative agreements totaling about $73 million administered
by the U.S. Fish and Wildlife Service (FWS), U.S. Geological Survey (USGS), National
Park Service (NPS), Bureau of Land Management (BLM), and Bureau of Reclamation
(BOR). Our scope, methodology, and locations visited are detailed in Appendices 1 and
2. We found that the proper use of cooperative agreements could significantly improve
Interior’s initiatives for collaborative partnerships and decrease the risk for fraud, waste,
and abuse of federal monies.

        Of the 119 agreements reviewed, 74, or nearly two-thirds, should have been
procurement contracts, that is, they were used for such purposes as hiring employees or
building infrastructure. In such situations, contracts better protect the government’s
interest because they are competed and contractors are penalized for nonperformance and
are paid only for allowable costs. Using cooperative agreements in lieu of contracts
increases the government’s exposure to fraud and misuse of federal monies and
ultimately jeopardizes the end performance of Interior partnerships.
        We concluded that Interior lacked a fundamental understanding as to how and for
what purpose cooperative agreements should be awarded. To address this
misunderstanding, we prepared a guide delineating the decision points to determine
whether a grant, cooperative agreement, or procurement contract was the appropriate
legal instrument (Appendix 3) and made five recommendations to improve the
management of cooperative agreements by (1) establishing an Interior-wide policy
requiring legal reviews, (2) enacting an Interior-wide policy requiring periodic
management reviews of the award and administration process, (3) developing
competition guidelines, (4) implementing a financial assistance training program, and
(5) requiring cost reviews during the performance period. If implemented, these
recommendations should improve the accountability and effectiveness of Interior
partnerships established under cooperative agreements and reduce the risk of fraud.

        In his October 2, 2006 response (Appendix 4), the Assistant Secretary for Policy,
Management and Budget partially concurred with Recommendations 1 and 3, concurred
with Recommendations 2 and 4, and did not concur with Recommendation 5. Based on
his response, we revised Recommendations 3 and 5. We consider these
recommendations and Recommendation 1 to be unresolved and Recommendations 2 and
4 to be resolved but not implemented. We will refer Recommendations 2 and 4 to the
Office of Policy, Management and Budget for tracking of implementation and are asking
the Assistant Secretary to reconsider Recommendations 1, 3, and 5.

        The legislation, as amended, creating the Office of Inspector General (OIG)
requires that we report to Congress semiannually on all audit reports issued, actions taken
to implement our audit recommendations, and recommendations that have not been
implemented. Please provide a written response to this report by March 2, 2007, that
supplies the information requested in Appendix 5. We appreciate the cooperation shown
by Interior bureaus during our review. If you have any questions regarding this report,
please call me at (916) 978-5653.

Attachment

cc: Assistant Secretary for Water and Science
    Assistant Secretary for Land and Minerals Management
    Assistant Secretary for Fish and Wildlife and Parks




                                             2
                                                        CONTENTS
Cooperative Agreements Key to Building Successful Partnerships ....................................1
    Current Use of Cooperative Agreements and Their Role in
      Interior Partnerships ................................................................................................1
    Objective and Scope ...................................................................................................2

Proper Use of Cooperative Agreements Could Improve Initiatives for
 Collaborative Partnerships and Decrease the Risk of Fraud, Waste, and Abuse...............4
     Ineffective Partnerships Are Not Leveraging Federal Dollars ..................................5
     Interior and Bureau Oversight Is Essential ................................................................6

Recommendations ...............................................................................................................9
   Assistant Secretary for Policy, Management and Budget Response
     and OIG Reply .........................................................................................................9

Appendices
    1    Objective, Scope, and Methodology ..............................................................14
    2    Sites Visited or Contacted ...............................................................................16
    3    Process to Determine Proper Use of Cooperative Agreements .......................18
    4    Assistant Secretary for Policy, Management and Budget Response ...............20
    5    Status of Audit Recommendations...................................................................27




Acronyms

BLM ....................................................................................................Bureau of Land Management
BOR...............................................................................................................Bureau of Reclamation
CSU .........................................................................................................California State University
CSUS ............................................................................... California State University at Sacramento
DM ..................................................................................................................Departmental Manual
DOI...........................................................................................................Department of the Interior
FAR ..................................................................................................Federal Acquisition Regulation
FWS...................................................................................................U.S. Fish and Wildlife Service
OIG.........................................................................................................Office of Inspector General
NPS..................................................................................................................National Park Service
OMB........................................................................................... Office of Management and Budget
USC .....................................................................................................................United States Code
USGS............................................................................................................U.S. Geological Survey

                                                                    i
        COOPERATIVE AGREEMENTS KEY TO BUILDING
              SUCCESSFUL PARTNERSHIPS
Partnerships with state and local                    every federal dollar spent. When
governments, universities, non-profit                properly used, cooperative agreements
organizations, and private citizens are              are powerful tools. For example, an
essential in helping Interior meet its               NPS partner has helped NPS leverage its
mission of managing the protection and               resources by more than $65 million since
use of resources, providing recreation,              1981 to improve visitor education and
and serving communities. By focusing                 recreation in the Golden Gate National
on the exchange of ideas and resources,              Recreation Area in San Francisco.1
partnerships result in a more productive
approach to solving problems and                     Typically, cooperative agreements
working toward mutual goals.                         convey dollars to recipients, who convert
                                                     the dollars to a variety of goods and
Partnerships can be legally established in           services, such as scientific research and
several ways, including memorandums                  habitat restoration on non-federal land,
of understanding, grants, contracts, and             which are related to carrying out,
cooperative agreements. The kind of                  supporting, or stimulating a public
partnership chosen depends on the                    purpose, as authorized by law. A guide
objective to be met.                                 to properly choose between a grant,
                                                     cooperative agreement, or procurement
        What Is a Cooperative                        contract is shown in Appendix 3.
            Agreement?
                                                     CURRENT USE OF COOPERATIVE
 A cooperative agreement is a legal                  AGREEMENTS AND THEIR ROLE IN
 instrument used to transfer money,
 property, services, or other things of value
                                                     INTERIOR PARTNERSHIPS
 from a federal party to a non-federal party
 under the following conditions:                     Over the past decade, Interior has
                                                     significantly increased its use of
  When there is congressional authority
     to do so.
                                                     cooperative agreements. The extent of
                                                     Interior’s use of these agreements is
  When the money, property, services, or            shown by comparing Interior’s financial
     other thing of value being transferred          assistance funding and use of
     will be used to accomplish a public             cooperative agreements with that of all
     purpose.                                        other federal government agencies
                                                     (Figures 1 and 2). Although Interior
  When both the federal and non-federal             expends only 1 percent ($4.5 billion) of
     parties will be substantially involved in       all federal outlays annually
     accomplishing the public purpose.               ($436.5 billion) for financial assistance,
                                                     it awards a disproportionate number of
In the case of cooperative agreements,               cooperative agreements (nearly a third)
the objective is to partner with non-                as compared to other federal agencies.
federal parties to achieve public benefits
that neither Interior nor the non-federal
party can accomplish alone—in effect                 1
                                                      NPS Report, National Park Service: Partnering
getting more than a dollar’s return for              & Managing for Excellence, July 2, 2003,
                                                     www.nps.gov/accomreport2003
                                                 1
                                                Bureau officials told us they believe that
                                                Section 307(b) allows them to use
                                                cooperative agreements to acquire goods
                                                and services for mission-related
                                                purposes. This view is shared by other
                                                Interior officials and contracting officers
                                                we interviewed, who believe that
                                                agencies having the authority to enter
                                                into both a procurement contract and a
                                                cooperative agreement also have the
                                                discretion to choose either one as the
                                                appropriate legal instrument.

                                                OBJECTIVE AND SCOPE

                                Figure 1        Of Interior’s $13.9 billion fiscal year
                                                2003 budget, $8.8 billion was expended
                                                on procurement contracts and financial
                                                assistance. Financial assistance, which
                                                includes grants and cooperative
                                                agreements, totaled $4.5 billion of this
                                                amount.

                                                At the time of our review, Interior lacked
                                                an integrated information system that
                                                managed both financial and program
                                                data. As previously reported in our
                                                August 2005 grants management report
                                                Framework Needed to Promote
                                                Accountability in Interior’s Grants
                                                Management,2 data generated by current
                                                information systems were unreliable to
                                Figure 2        the extent that we could not determine
                                                the amounts obligated or expended
The greater reliance on cooperative
agreements has occurred, in part,               2
                                                  This report, focused solely on grants, revealed
because of legislation that bureaus have        serious deficiencies, such as lack of competition,
interpreted as giving them broader              training, reliable data, and effective monitoring,
discretion on how and when to use               which collectively did not ensure the use of
cooperative agreements. For example,            federal dollars as intended; promote fair
under the Federal Land Policy and               treatment for both grant applicants and
                                                recipients; or reduce the susceptibility of
Management Act of 1976,                         programs to fraud, waste, and abuse. The report
Section 307(b), BLM, acting through the         included a framework for action, such as using
Secretary, was granted broad authority to       the Department of the Interior’s (DOI)
enter into both contracts and cooperative       University for training, to significantly improve
agreements that involve the                     the quality of grants management within Interior
                                                and to encourage public participation in and
management, protection, development,            benefit from financial assistance programs, as
and sale of public lands.                       intended by Congress.
                                            2
annually for grants or the award                 $73 million for fiscal years 2001 through
recipients.                                      2003 to determine whether they met the
                                                 following conditions:
Interior’s information systems also
generated unreliable data on cooperative          (1) Fostered effective partnerships,
agreements. Without summarized
information at the Departmental or                (2) Acquired goods and services for
bureau level, we were limited to visiting             allowable and reasonable costs,
or contacting bureau offices and
judgmentally selecting cooperative                (3) Complied with applicable laws and
agreement files for review. In certain                regulations.
instances, we used individual
cooperative agreement listings prepared                       Bureau            No.
by the bureaus to select files for review.
In other instances, we used the Federal                       NPS                43
Assistance and Awards Data System,                            BLM                13
operated by the U.S. Census Bureau, to
                                                              BOR                 8
select files for review. We based our
selections on a cross-section of recipient                    USGS               24
types, dollar values, work statements,                        FWS                31
bureaus, and geographic locations.                            Total             119
We reviewed 119 cooperative                                                      Figure 3
agreements (Figure 3) totaling




                                             3
      PROPER USE OF COOPERATIVE AGREEMENTS COULD
  IMPROVE INITIATIVES FOR COLLABORATIVE PARTNERSHIPS
   AND DECREASE THE RISK OF FRAUD, WASTE, AND ABUSE

The proper use of cooperative
                                                            Cooperative Agreement Test Results
agreements could significantly improve
                                                     120
Interior’s partnership initiatives with
state and local governments, non-profit              100
                                                              116


organizations, and private individuals.                                                    100


These initiatives are essential in helping            80


Interior meet its mission goals.                      60
                                                                             74


                                                                                                          62
                                                                                                               57

The threat posed by Interior’s improper               40
                                                                                  45

use of cooperative agreements is
                                                      20
twofold. First, improper use results in                             3                            19

partnerships that do not (a) leverage                  0
                                                           Clear Legal   Proper Legal   Cooperative    Substantial
federal dollars to accomplish more than                     Authority     Instrument    Agreements    Involvement
                                                                                         Competed
would have been accomplished by                                                   Failed     Passed
procurement contracts, (b) provide
mutual benefit to achieve a common                                                                          Figure 4
purpose, (c) acquire goods and services
at reasonable costs, or (d) comply with           Our review of 119 cooperative
applicable laws and regulations.                  agreements (Figure 4) revealed that
Second, improper use unnecessarily                Interior consistently failed at critical
increases Interior’s risk for fraud, waste,       decision points in determining when to
and abuse.                                        use cooperative agreements. For
                                                  example:
Although differing interpretations of
bureau legal authorities were a                    Nearly all (116) of the cooperative
contributing factor, the improper use of            agreements reviewed were awarded
cooperative agreements is primarily the             without clear legal authority. Thus,
result of ineffective Interior oversight            the issue of what constitutes legal
coupled with a lack of consistent policies          authority is a fundamental problem
and procedures governing the use of                 in Interior.
such agreements. Without effective
oversight, bureaus adopted their own               Nearly two-thirds (74) of the
sets of guidelines. These guidelines                cooperative agreements were issued
neither clarified the proper use of                 in lieu of procurement contracts to
agreements nor provided a system of                 acquire mission-related goods and
checks and balances to protect the                  services and were therefore contrary
interests of both the government and the            to one of the primary purposes of the
non-federal party, as do the controls for           Federal Grant and Cooperative
contracts stipulated in Title 48 of the
Code of Federal Regulations.



                                              4
     Agreement Act of 1977 (31 USC                        federal dollars in accomplishing
     6303),3 namely, to curb the misuse                   Interior’s vital mission goals. At best,
     of financial assistance agreements                   these agreements could be called one-
     in procurement situations.                           sided partnerships. At worst, they did
                                                          not protect the interests of the
 Most (100) cooperative agreements                       government, as do contracts, and
  were issued without soliciting for                      unnecessarily increased the risk of the
  competition and therefore did not                       misuse of federal monies. For example:
  ensure that the best goods and
  services were acquired at the most                       USGS Used a University as a
  reasonable price possible.                                 Payroll Agent to Hire Contractors
                                                             and Pay Salaries, Thereby
 Just over half (62) of the cooperative                     Precluding Opportunities for
  agreements did not have substantial                        Benefits of Joint Research. Over
  involvement by both parties, a                             the past 4 years, the USGS
  defining characteristic of what                            California Water Science Center
  constitutes a cooperative agreement.                       used a cooperative agreement with
                                                             California State University at
                                                             Sacramento (CSUS) to pay 28 full-
INEFFECTIVE PARTNERSHIPS ARE
                                                             time contractors ($2 million
NOT LEVERAGING                                               annually) for work on USGS
FEDERAL DOLLARS                                              research projects. Contrary to the
                                                             original intent of the agreement to
As a result, under the guise of forming                      establish a partnership between
partnerships, bureaus extensively used                       CSUS and USGS for joint research,
cooperative agreements as a                                  the contractors worked solely for the
procurement tool to hire employees,                          Center, some for as long as 7 years.
perform maintenance work, and build
infrastructure that directly benefited their               BLM Used a Non-Profit to Hire
own missions. In these cooperative                           Temporary Employees, Violating
agreements, the non-federal parties and                      31 USC 6303 and the Federal
Interior bureaus did not work together as                    Acquisition Regulation
partners to accomplish a mutual goal that                    (FAR 37.104(b)). For 5 years, BLM
benefited the public.                                        used a cooperative agreement with a
                                                             non-profit to hire hundreds of
Rather, the non-federal parties                              temporary employees to work for up
functioned solely as contractors or                          to 2 years at various BLM offices at
brokers to provide or acquire services for                   a cost of $15 million. In this
the government. As such, they                                situation, BLM violated FAR, which
contributed little or none of their own                      specifically prohibits agencies from
resources. The use of cooperative                            awarding personal service contracts
agreements in this way did not foster                        unless specifically authorized by
effective partnerships that leveraged                        statute to do so. This agreement
                                                             qualified as a personal services
                                                             contract because an “employer-
3
  This law requires use of a procurement contract            employee” relationship was created
(unless Congress states otherwise) as the legal              between BLM and the temporary
instrument when the principal purpose is to
acquire property or services for the direct benefit
                                                             employees, whom BLM continually
or use of the U.S. Government.                               supervised.
                                                      5
 Against the Advice of a Regional               FWS Improperly Used a
   Solicitor, BOR Used Cooperative                 Cooperative Agreement to Pay for
   Agreements to Hire Law                          the Construction of a Science
   Enforcement Services. In 2002,                  Building. Over the last 3 years,
   BOR ignored the advice of a                     FWS used a cooperative agreement
   Regional Solicitor to use contracts             in lieu of a construction contract to
   and instead issued two cooperative              pay a non-federal party $6.5 million
   agreements totaling $900,000 for law            for constructing a science laboratory
   enforcement services to help protect            at Sevilleta National Wildlife Refuge
   two water projects. Although the                in New Mexico. Although Congress
   BOR Solicitor indicated that use of a           appropriated funds for the laboratory
   cooperative agreement was “legally              as a budget line-item, Congress did
   sufficient,” he stated that a contract          not expressly authorize the use of a
   would be a better instrument. We                cooperative agreement. FWS
   agree and believe that the use of a             therefore lacked specific statutory
   contract would have better protected            authority to award a cooperative
   the government’s interest by                    agreement for this construction
   (1) clearly delineating security                project. Further, FWS was not
   requirements, (2) including a                   substantially involved in
   requirement for cost reviews of                 construction oversight, as it would
   extraordinary costs, and (3) ensuring           have been with a construction
   all agreements include performance              contract. Ultimately, project
   enforcement provisions.                         completion lagged a year behind
                                                   schedule, and the square footage of
 FWS Used a Cooperative                           the original building plan was
   Agreement in Lieu of a Contract                 reduced by about 50 percent. A
   and Then Paid Summary Billings                  contract might have better protected
   That Included Unallowable Costs.                the government’s interest.
   FWS awarded a $25,000 cooperative
   agreement to a non-profit for
                                                INTERIOR AND BUREAU
   maintenance on FWS refuges.
   Twenty modifications increased that          OVERSIGHT IS ESSENTIAL
   amount to about $4.15 million. We
   reviewed $1.5 million of the billed          Interior must improve its oversight on
   costs and identified questioned and          the use of cooperative agreements to
   disallowed costs of over $73,000 for         ensure that partnerships leverage federal
   entertainment, alcohol, excessive            dollars; bureaus obtain goods and
   travel, and unsupported charges.             services at reasonable costs; and
   FWS conducted only minimal and               cooperative agreements, once issued,
   sporadic reviews of the costs charged        comply with laws and regulations. The
   against this agreement. Federal              requirements for effective oversight are
   regulations governing these types of         threefold:
   contracts require that costs be
   reviewed for accuracy, allowability,          Conducting thorough legal reviews
   and reasonableness. The $73,000                prior to awarding a cooperative
   paid for questioned or disallowed              agreement.
   costs could have been used for other
   maintenance activities.

                                            6
 Reviewing billed costs during the              Without a statute expressly exempting
  cooperative agreement performance              the acquisition of goods and services
  period.                                        from the requirements of the Federal
                                                 Grant and Cooperative Agreement Act
 Performing periodic management                 of 1977, the use of a cooperative
  reviews of all processes related to            agreement to obtain mission-related
  awarding and administering                     goods and services violates 31 USC
  cooperative agreements.                        6303. As defined in the 1977 Act,
                                                 cooperative agreements are financial
LEGAL REVIEWS                                    assistance instruments to be used, like
Because of legal authorities that can be         grants, for acquiring goods and services
interpreted in multiple ways, we                 that serve a public purpose, but which
questioned all but three of the legal            require a greater degree of federal
authorities used to justify the use of the       involvement than grants.
119 cooperative agreements. We also
questioned whether 74 of the                     The distinction between contracts and
119 agreements should have instead               cooperative agreements is a clear one
been procurement contracts. Before               that has been consistently upheld by the
bureaus award cooperative agreements,            Comptroller General of the United
Interior solicitors should confirm that          States. Given the current use of
bureaus have the legal authority to do so        cooperative agreements, Interior must
and, if so, whether agreements comply            take steps to better control the selection
with all laws and regulations.                   of cooperative agreements as the
                                                 appropriate mechanism.
At the time of our audit, there was no
Interior-wide policy requiring legal             On March 29, 2006, Interior adopted a
reviews before the award of cooperative          new policy in the Departmental Manual
agreements. Absent such a policy,                (DM 505 2.8.D), which required legal
bureaus adopted differing financial              reviews for cooperative agreements with
thresholds for legal reviews, as follows:        values over $750,000.

                                                 COST REVIEWS
    Thresholds for Legal Reviews                 Given Interior’s practice of using
    Bureau          Threshold                    cooperative agreements as streamlined
   BOR                        $300,000           procurements contracts, reviews of
   NPS                   All Assistance          billed costs during the performance
   USGS                     $1,000,000           period are critical to ensure that goods
                                                 and services are produced at reasonable
   BLM                      As Needed
                                                 costs.
   FWS                        $500,000
                                 Figure 5        Reviews should include evaluating the
                                                 basis for cost estimates and incurred
Lacking the checks and balances                  costs to validate billed costs and
provided by FAR, the indiscriminate use          matching requirements. Although
of cooperative agreements in lieu of             bureaus sometimes reviewed, planned,
procurement contracts also increases the         or budgeted costs before awarding
government’s exposure to the misuse of           cooperative agreements, they rarely
federal monies.                                  reviewed incurred costs, including any
                                             7
matching requirements. As some of the                  savings of around 30 percent when
examples discussed previously                          competition is introduced.
demonstrated, bureaus have sometimes
paid for unallowable and excessive                     In an effort to address compliance with
costs.                                                 laws and regulations covering financial
                                                       assistance, the Office of Acquisition and
PERIODIC MANAGEMENT REVIEWS                            Property Management, in fiscal year
In addition to legal and cost reviews,                 2006, took its first step towards effective
bureaus must periodically review                       oversight by requiring bureaus to review
processes related to awarding and                      25 percent of all financial assistance
administering cooperative agreements.                  transactions as part of their annual
These processes include, but are not                   “functional review requirement.” In the
limited to, (1) ensuring the required legal            past, Interior had no such specific review
reviews are done, (2) soliciting for                   requirement.
competition, (3) requiring substantial
involvement from both parties,                         We commend this step and believe that
(4) obtaining goods and services at                    Interior should build on this effort of the
allowable and reasonable costs, and                    Office of Acquisition and Property
(5) properly coding transactions to all                Management by developing an Interior-
financial and program systems. Such                    wide policy for periodic management
reviews, when coupled with effective                   reviews. Such reviews would provide
corrective actions, would address                      the information necessary for more
another primary deficiency, namely the                 informed decisions, better use of
lack of competition.                                   resources, and greater accountability,
                                                       thereby improving program management
Lacking a competition advocate4 and an                 and fostering collaborative partnerships.
enforceable requirement for competition,
bureau personnel prefer not to seek
competitive proposals. However,
Congress encourages competition in
awarding both grants and cooperative
agreements, as does Interior, through
Part 505, Chapter 2.13 of the DM and
through Office of Management and
Budget (OMB) Circulars A-102 and
A-110.

The emphasis on competition is based on
the assumption that competition
encourages innovation, increases
efficiency, and lowers prices. Studies by
OMB, the University of Maryland, and
the Reason Foundation show average

4
 We identified the use of a competition advocate
to approve non-competitive awards as a
promising practice in our August 2005 grants
management report Framework Needed to
Promote Accountability in Interior’s Grants.
                                                   8
                            Recommendations
We recommend that the Deputy                         with the customer service mandates
Secretary take the following actions:                prescribed in Public Law 106-107.5

1. Establish an Interior-wide policy to         4. In conjunction with DOI’s
   require, in conjunction with bureau             University, establish and implement
   solicitors, reviews of all proposed             a training program for all acquisition
   cooperative agreements to ensure                and program personnel. This
   that (a) the bureau has the legal               training program should provide
   authority, (b) there is substantial             instruction on how to use applicable
   involvement by both parties to the              OMB circulars to conduct thorough
   agreement, (c) the correct legal                cost reviews of budgeted and actual
   instrument is used, and (d) all                 expenditures.
   authorities and responsibilities,
   deliverables, cost budgets, and time         5. Require cost reviews during the
   frames for completing agreement                 cooperative agreement’s
   objectives are clearly delineated.              performance period to monitor billed
                                                   costs and matching requirements.
2. Establish an Interior-wide policy to            This would include comparing cost
   require periodic management                     estimates developed during the
   reviews of all processes related to             application process to incurred costs.
   awarding and administering
   cooperative agreements. These                ASSISTANT SECRETARY FOR
   processes should, at a minimum,              POLICY, MANAGEMENT AND
   include determining whether
                                                BUDGET RESPONSE AND OIG
   (a) required legal reviews were
   completed, (b) competition was               REPLY
   solicited, (c) substantial involvement
   occurred from both parties, (d) goods        In his October 2, 2006 response to our
   and services were obtained at                draft report (Appendix 4), the Assistant
   allowable and reasonable costs, and          Secretary for Policy, Management and
   (e) transactions were properly coded         Budget generally agreed with our
   to all financial and program systems.        “overall findings that program and
                                                administrative improvements and
3. Develop competition guidelines and           management support are needed” to
   metrics to evaluate and annually             improve the award and administration of
   report the use of competition in             cooperative agreements. The Assistant
   awarding cooperative agreements to           Secretary’s response included
   maintain the transparency consistent         attachments detailing general comments
                                                on the report and comments of
                                                5
                                                  The 1999 Federal Financial Assistance
                                                Management Improvement Act (Public Law 106-
                                                107) and a clarifying OMB Directive require
                                                posting financial assistance funding
                                                opportunities to a single source to simplify and
                                                streamline financial assistance applications and
                                                reporting procedures.
                                            9
individual bureaus. Although we did not              505 DM 2.8.D makes provision for
include the attachments in Appendix 4,               legal review, not only for proposed
we addressed these comments in the                   grants and cooperative agreements
report as appropriate.                               with values in excess of $750,000,
                                                     but [also] those ‘of which the
The Assistant Secretary partially                    bureau or office otherwise seeks
concurred with Recommendations 1 and                 legal review.’
3, concurred with Recommendations 2
and 4, and did not concur with                    OIG Reply. The Assistant Secretary’s
Recommendation 5. Based on the                    plan to implement a “built in” review
response, we consider Recommendations             sheet and Interior’s adoption of a legal
2 and 4 to be resolved, and are referring         review policy for agreements in excess
them to the Assistant Secretary for               of $750,000 do not address the
Policy, Management and Budget for                 widespread confusion and misuse of
tracking of implementation. Based on              cooperative agreements within Interior
the response, we revised                          for the following reasons:
Recommendations 3 and 5. We consider
these recommendations and                          The Assistant Secretary does not
Recommendation 1 to be unresolved.                  state who would complete the review
We are asking the Assistant Secretary to            sheet, when it would be completed,
reconsider these three recommendations              what level of management would
and provide the information requested in            evaluate the answers, and what
Appendix 5.                                         documentation would be required in
                                                    support of the answers given.
RECOMMENDATION 1
The Assistant Secretary appreciated our            Under the existing $750,000
flowchart (Appendix 3 of our report) and            threshold, 105 of the 119 agreements
agreed to develop and implement an                  included in our audit would not have
Interior-wide policy that requires                  been reviewed. These legal reviews
adequate consideration of points (a)                are needed because we found that
through (d) in Recommendation 1. The                (1) legal authorities were too vague;
Assistant Secretary stated that the policy          (2) procurement contracts would
would require, “at minimum, use and                 have been more appropriate; (3) both
completion of [a] . . . Financial                   parties to the agreements were not
Assistance Agreement Review Sheet”                  adequately involved; and
that would be “built into” the agreements           (4) authorities, responsibilities,
and completed at the “practitioner” level.          deliverables, cost budgets, time
The Assistant Secretary disagreed,                  frames, and objectives were not
however, on the need for legal reviews              clearly delineated. For example, in
for all cooperative agreements, citing              the 74 cases where procurement
Interior’s new policy (505 DM 2.8.D),               contracts should have been used
adopted on March 29, 2006, which                    instead of cooperative agreements,
requires legal reviews of proposed                  only 38 received legal reviews.
cooperative agreements exceeding                    Bureaus often used vague legal
$750,000. The Assistant Secretary also              authorities to justify issuing
stated:                                             cooperative agreements. For many
                                                    agreements, we questioned whether

                                             10
    bureaus had the legal authority to              RECOMMENDATION 3
    distribute financial assistance funds.          The Assistant Secretary agreed that
                                                    competition should be encouraged and
We are concerned that the Assistant                 stated that “existing policy meets the
Secretary’s response will not effectively           letter and spirit of the Federal Grant and
address all the elements of our                     Cooperative Agreement Act of 1977.”
recommendation. We believe that until               The Assistant Secretary stated that “505
Interior officials, in conjunction with             DM 2.13,” adopted in March 2006,
solicitors, are better able to ensure the           “requires, with few exceptions, that all
proper use of cooperative agreements,               discretionary grant and cooperative
the $750,000 threshold should be                    agreement funding opportunities be
suspended and that all proposed                     posted to the Grants.gov web site.” The
cooperative agreements should be                    Assistant Secretary stated that “rather
reviewed.                                           than designating competition advocates,
                                                    Departmental policy . . . should be
It should be noted that the Assistant               advocated and enforced at the
Secretary stated that a “revised” version           practitioner level.”
of the flowchart in Appendix 3 would be
included in the DM. As the Assistant                OIG Reply. The March 2006 policy
Secretary felt it was important to revise           lacks a provision for monitoring and
the original flowchart, we believe the              reporting on competition advocacy by
revised version should be evaluated for             practitioners. For example, a cursory
accuracy and appropriateness before                 review of financial assistance awards
being incorporated into the DM.                     posted to Grants.gov in November 2006
                                                    revealed that only 40 programs out of
RECOMMENDATION 2                                    about 150 programs were posted. Of the
The Assistant Secretary concurred with              posted programs, 28, or 70 percent,
the recommendation and stated that,                 contained readily available information
effective fiscal year 2006, Interior had            indicating competition was being
begun requiring “bureaus to perform                 solicited in some manner. Interior
annual internal control reviews of                  should therefore develop criteria for
25 percent of their financial assistance            reporting the success of competition
programs . . . resulting in review of all of        efforts and post this information in such
these programs over a four-year period.”            a way as to be available to the general
The Assistant Secretary also stated that            public. Based on the March 2006
bureaus would be required to “provide               policy, we revised Recommendation 3 to
evidence that corrective action plans               remove competition advocates in favor
have been established and are being                 of annual reporting on the use of
monitored for all cited deficiencies.”              competition.

OIG Reply. We agree with the Assistant              We commend the encouragement of
Secretary and would encourage that the              competition stated in the March 2006
internal control reviews include all                policy; specifically the mandate that
cooperative agreements, even those that             bureaus and offices (1) post all
are not associated with established                 agreements on Grants.gov, (2) provide
Interior financial assistance programs.             for an independent objective evaluation
                                                    of all applications prior to award,
                                                    (3) ensure that applications are reviewed
                                               11
and evaluated by qualified reviewers and         The Assistant Secretary also stated that
scored and ranked and selections are             inappropriate charges should be
made based on the announced criteria,            prevented through the recipients’
and (4) notify unsuccessful applicants as        systems of internal controls and
to why their applications were                   monitored through the Single Audit
disapproved.                                     process.

RECOMMENDATION 4                                 OIG Reply. We disagree with the
The Assistant Secretary concurred with           Assistant Secretary’s statement that
Recommendation 4 and stated that the             “additional cost reviews requirements
Office of Acquisition and Property               are incompatible with the administrative
Management would work with DOI’s                 requirements and procedures of . . .
University to establish and implement a          OMB Circulars” and that “unallowable”
mandatory training program for all               or “unallocable” costs would be
employees with financial assistance              prevented or detected through the Single
responsibilities. The training program           Audit process. We revised our report
will include instructions on OMB                 and Recommendation 5 to clarify our
Circular requirements and the conduct of         definition of cost reviews; that is,
cost reviews of budgeted and actual              reviews conducted during the
expenditures.                                    performance period to monitor billed
                                                 costs and matching requirements. Such
OIG Reply. We agree with the Assistant           monitoring is consistent with the intent
Secretary’s response and believe that            of OMB circulars, specifically Circular
required training should also include            A-110 Uniform Administrative
program officials and managers.                  Requirements for Grants and
                                                 Agreements with Institutions of Higher
RECOMMENDATION 5                                 Education, Hospitals, and Other Non-
The Assistant Secretary confirmed the            Profit Organizations and Circular A-102
importance of reviewing the allocability,        Grants and Cooperative Agreements
allowability, and reasonableness of costs        with State and Local Governments. For
to produce goods and services related to         example Circular A-102 states “In
cooperative agreements but stated:               assessing the adequacy of an applicant's
                                                 financial management system, the
   Additional cost review requirements           awarding agency shall rely on readily
   are incompatible with the                     available sources of information, such as
   administrative requirements and               audit reports, to the maximum extent
   procedures of . . . OMB Circulars             possible.” The Circular also states,
   A-102, A-110, and A-133, and the              however, that if “additional information
   goal of reducing administrative               is necessary to assure prudent
   burdens placed on                             management of agency funds, it shall be
   applicants/recipients as identified in        obtained from the applicant or from an
   the Federal Grants and Cooperative            on-site review.” In addition,
   Agreements Act of 1977, and the               Circular A-110 states “Federal awarding
   Federal Financial Assistance                  agencies shall require recipients to relate
   Management Improvement Act of                 financial data to performance data . . .
   1999, Public Law 106-107.                     whenever practical.”



                                            12
The need for financial performance               broad, entity-wide level for a snap-shot
monitoring by awarding agencies is               in time but are not done
inherent in the recipients’                      contemporaneously with agreement
responsibilities under the circulars. For        performance and do not meet monitoring
example, Circular A-110 requires that            requirements for each individual
recipients’ financial systems provide for        cooperative agreement. The cost
“accurate, current, and complete                 reviews we are recommending—reviews
disclosure of the financial results,”            conducted during the performance
“records that identify adequately the            period—generally fall under the
source and application of funds,”                provisions of OMB Circulars A-110 and
“effective control over and                      A-102, which govern cost accountability
accountability for all funds,”                   for individual financial assistance
“comparison of outlays with budget               awards, from award through close-out.
amounts for each award,” “written
procedures for determining the                   Overall, we made our recommendations
reasonableness, allocability, and                because of the lack of accountability and
allowability of costs,” and “accounting          transparency in Interior’s management
records including cost accounting                of financial assistance awards. As
records that are supported by source             Interior “builds in” the controls needed
documentation.”                                  to achieve accountability and
                                                 transparency, as stated by the Assistant
Although the single audits stipulated in         Secretary, the need for comprehensive
Circular A-133 Audits of States, Local           oversight of award recipients, such as
Governments, and Non-Profit                      cost reviews, should decrease. Such
Organizations may be useful in                   “built in” controls would improve the
monitoring financial performance, the            quality of financial assistance
single audit alone can not satisfy all           management, encourage public
financial performance monitoring                 participation, and achieve the public
aspects. Single audits ensure the                benefits intended by Congress.
accountability of federal funds at a




                                            13
APPENDIX 1
OBJECTIVE, SCOPE, AND METHODOLOGY
We focused our audit on the $1.5 billion            considered necessary to accomplish our
in financial assistance annually managed            objective.
by Interior bureaus during fiscal years
2001 through 2003. We did not review                Our audit was conducted during fiscal
partnerships created with other legal               years 2004 through 2006. We
instruments, such as “joint funding                 interviewed numerous Interior and
agreements.”                                        bureau officials to understand the
                                                    processes related to awarding and
Using the definition of cooperative                 administering cooperative agreements.
agreements as a guide,6 we determined               We reviewed laws; OMB circulars;
whether Interior’s use of these                     Interior and bureau policies and
agreements (1) fostered effective                   procedures; Comptroller General
partnerships, (2) acquired goods and                Decisions; and past reports related to
services for allowable and reasonable               cooperative agreements issued by the
costs, and (3) complied with applicable             OIG, Government Accountability
laws and regulations.                               Office, and other federal and non-federal
                                                    agencies. We also reviewed bureau
Because summarized Departmental                     financial and program information.
information on cooperative agreements
was not available, we visited and                   We reviewed Interior’s Performance and
contacted Interior and bureau offices               Accountability Reports for fiscal years
located throughout the country and                  2001 through 2003, which included
judgmentally selected cooperative                   information required by the Federal
agreement files for reviews (see                    Managers’ Financial Integrity Act, and
Appendix 2).                                        bureau annual assurance statements. We
                                                    found that Interior identified “controls
To accomplish our audit, we tested                  over financial reporting” for grants as a
119 cooperative agreements totaling                 material weakness in fiscal year 2002.
about $73 million administered by FWS,              We addressed this weakness in our
USGS, NPS, BLM, and BOR. As part                    August 2005 grants management report
of our tests, we determined whether the             Framework Needed to Promote
proper goods and services for                       Accountability in Interior’s Grants
20 cooperative agreements were                      Management.
acquired in accordance with the terms
and conditions of the agreements.                   We also determined whether Interior had
                                                    designed and implemented a system of
Our audit was conducted in accordance               internal controls to provide reasonable
with the Government Auditing                        assurance that cooperative agreements
Standards, issued by the Comptroller                (1) fostered effective partnerships,
General of the United States.                       (2) acquired the goods and services for
Accordingly, we included such tests of              allowable and reasonable costs, and
records and other auditing procedures               (3) complied with applicable laws and
                                                    regulations.
6
 Federal Grant and Cooperative Agreement Act
(31 USC 6305)
                                               14
We found weaknesses in Interior’s               recommendations should improve
oversight of cooperative agreements.            internal controls over Interior’s use of
These weaknesses and recommended                cooperative agreements.
corrective actions are discussed in this
report. If implemented, the




                                           15
 APPENDIX 2
 SITES VISITED OR CONTACTED
                      Sites                                               Location
Office of Acquisition and Property Management        Washington, D.C.
BLM
California State Office                              Sacramento, California
Washington Office, Audit Liaison*                    Washington, D.C.
BOR
Great Plains Region                                  Billings, Montana
Lower Colorado Region*                               Boulder City, Nevada
Mid-Pacific Region                                   Sacramento, California
Pacific Northwest Region*                            Boise, Idaho
Bureau-wide Audit Liaison*                           Lakewood, Colorado
NPS
Intermountain Region                                 Lakewood, Colorado
  Contracting Support Office                         Santa Fe, New Mexico
  Contracting Support Office                         Lakewood, Colorado
Northeast Region                                     Philadelphia, Pennsylvania
  Valley Forge National Historical Park              Valley Forge, Pennsylvania
Pacific West Region                                  Oakland, California
  Whiskeytown National Recreation Area               Whiskeytown, California
Southeast Region                                     Atlanta, Georgia
  Great Smoky Mountains National Park                Tennessee
Washington Office, Audit Liaison*                    Washington, D.C.
FWS
Mountain-Prairie Region                              Lakewood, Colorado
Northeast Region                                     Hadley, Massachusetts
 Missisquoi National Wildlife Refuge                 Swanton, Vermont
 Moosehorn National Wildlife Refuge                  Calais, Maine
 Rappahannock River Valley National Wildlife
                                                     Warsaw, Virginia
 Refuge
 Wallkill River National Wildlife Refuge             Sussex, New Jersey
   * Contacted only




                                                16
                               SITES VISITED OR CONTACTED (CONTINUED)
                       Sites                                               Location
Southeast Region                                        Atlanta, Georgia
Southwest Region                                        Albuquerque, New Mexico
 New Mexico Ecological Services Field Office            Albuquerque, New Mexico
 Sevilleta National Wildlife Refuge                     Socorro, New Mexico
Washington Office, Audit Liaison*                       Arlington, Virginia
USGS
Forest and Rangeland Ecosystem Science Center           Corvallis, Oregon
California Water Science Center                         Sacramento, California
Office of Acquisition and Grants, Eastern Region        Reston, Virginia
Office of Acquisition and Grants, Western Region        Sacramento, California
Washington Office Audit Liaison*                        Washington, D.C.
Minerals Management Service
Washington Office, Audit Liaison*                       Washington, D.C.
Other (Non-Interior)
Applied Technology Council                              Redwood City, California
Association of Bay Area Governments                     Oakland, California
CSU Monterey Bay Foundation                             Seaside, California
CSU Sacramento Foundation                               Sacramento, California
Ducks Unlimited, Inc., Great Lakes/Atlantic
                                                        Ann Arbor, Michigan
  Regional Office*
  Ducks Unlimited, Inc., Project Sites                  Cooperstown, New York
Ducks Unlimited, Inc., Western Regional Office          Rancho Cordova, California
Harrison Duck Club                                      West Valley City, Utah
Intermountain West Joint Venture                        West Valley City, Utah
Marsh Holders’ Duck Club                                Ogden, Utah
Sacramento Regional Foundation                          Sacramento, California
Shade Global                                            New York City, New York
Sonoma County Water Agency                              Santa Rosa, California
Turner Enterprises                                      Colfax County, New Mexico
University of Arizona, the Department of
                                                        Tucson, Arizona
  Geosciences and the Desert Laboratory
University of Denver, Department of Geography           Denver, Colorado
University of New Mexico                                Albuquerque, Arizona
    * Contacted only




                                                   17
  Determine what goods or                                                              Appendix 3
  services are needed and                                Process to Determine Proper Use
then decide the proper legal                                  Of Cooperative Agreements
instrument to acquire them.




         Does a statute
       expressly exempt
     the project from the
     requirements of the                                        Follow the Guidelines
                                              YES
      Federal Grant and                                             of the Statute
          Cooperative
        Agreement Act?


                                       Federal agencies generally have inherent statutory authority to
                                       contract or procure goods and services for their own use. Such
                                       procurements fall under Title 48 of the Code of Federal
                                       Regulations, a body of regulations that stipulates a system of
                                       checks and balances to protect the government and the vendor.
               NO
                                       There is no comparable inherent statutory authority to
                                       provide federal financial assistance to a non-federal
                                       party.




        Does the bureau
       have broad* legal
                                                                   Use Procurement
        authority to use                       NO                      Contract
      financial assistance
          instruments?
                                       The Federal Grant and Cooperative Agreement Act of 1977, as
                                       amended (31 USC 6303), requires bureaus, unless otherwise
                                       directed by Congress, to use procurement contracts to acquire
                                       mission-related goods and services; that is, those that are
                                       essential to a bureau's ability to administer its offices and meet
                                       mission goals. Examples of these services are collaborations
                                       with non-federal parties to:
              YES                        ◊ Conduct repairs and maintenance on federal lands
                                         ◊ Eradicate invasive species on federal lands
                                         ◊ Acquire lease space for federal personnel
                                         ◊ Conduct studies for management of federal resources
                                         ◊ Perform construction on federal lands
              Go To
              Upper                      ◊ Ensure public safety at federal facilities
              Right


* As defined, broad legal authority allows the Bureau to choose between a cooperative agreement or contract to
acquire mission-related goods or services.




                                                   18
             From
            Bottom
              Left




     Do the goods and
       services being                               Use Procurement
     acquired primarily           YES                   Contract
    benefit the bureau's
          mission?


                               Acquisition of goods and services for public benefit is
                               awarded by either a grant or a cooperative agreement.
                               Examples of benefits through collaboration with non-federal
                                                                                  -
                               parties are:
                                 ◊ Removing invasive species on non-federal lands
             NO                  ◊ Jointly managing non-federal historical and cultural
                                    resources
                                 ◊ Conducting joint educational programs with school
                                    districts
                                 ◊ Restoring or managing habitat on private land
Goods and services are for a
                                 ◊ Assisting communities in preventing or controlling fires
public purpose, which serves
                                 ◊ Conducting interpretive activities on non-federal lands
 a public good beyond that
  accomplished on federal
     lands and facilities.




         Are both the
      non -federal party
          and bureau
         substantially            NO                    Use Grant
    involved in doing the
           project?
                               "Substantial involvement" is the defining distinction
                               between grants and cooperative agreements and was
                               the basis on which Congress established cooperative
                               agreements as a new financial assistance category in the
                               1977 Act. Congress recognized that the new category was
                               appropriate for instances when the federal government
                               needed to be more involved with grantees than was
            YES                customary.



    Use Cooperative
      Agreement




                                      19
APPENDIX 4
ASSISTANT SECRETARY FOR
POLICY, MANAGEMENT AND BUDGET RESPONSE




                      20
21
22
23
24
25
26
                                           APPENDIX 5
                   STATUS OF AUDIT RECOMMENDATIONS

Recommendations       Status                   Action Required

    2 and 4          Resolved;        We will refer the recommendations to
                  Not Implemented     the Assistant Secretary for Policy,
                                      Management and Budget for tracking
                                      of implementation.

   1, 3, and 5      Unresolved        We are asking the Assistant Secretary
                                      for Policy, Management and Budget
                                      to reconsider the recommendations
                                      and provide a plan identifying actions
                                      to be taken, target dates for
                                      completion, and the titles of the
                                      officials responsible for
                                      implementation.




                                 27
